<html>
<title> - DATA ACT IMPLEMENTATION CHECK-IN</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                    DATA ACT IMPLEMENTATION CHECK-IN

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 8, 2016

                               __________

                           Serial No. 114-129

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-008 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6304130c23001610170b060f134d000c0e4d">[email&#160;protected]</a>                       
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
THOMAS MASSIE, Kentucky              BRENDA L. LAWRENCE, Michigan
MARK MEADOWS, North Carolina         TED LIEU, California
RON DeSANTIS, Florida                BONNIE WATSON COLEMAN, New Jersey
MICK MULVANEY, South Carolina        STACEY E. PLASKETT, Virgin Islands
KEN BUCK, Colorado                   MARK DeSAULNIER, California
MARK WALKER, North Carolina          BRENDAN F. BOYLE, Pennsylvania
ROD BLUM, Iowa                       PETER WELCH, Vermont
JODY B. HICE, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
STEVE RUSSELL, Oklahoma
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
                      Katy Rother, Senior Counsel
                           Willie Marx, Clerk
                                 ------                                

                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 8, 2016.................................     1

                               WITNESSES

Ms. Paula Rascona, Director, Financial Management and Assurance, 
  U.S. Government Accountability Office, Accompanied by Mr. Peter 
  J. Del Toro, Assistant Director, Strategic Issues Team, U.S. 
  Government Accountability Office
    Oral Statement...............................................     5
    Written Statement............................................     7
The Hon. David Mader, Controller, Office of Federal Financial 
  Management, The Office of Management and Budget
    Oral Statement...............................................    17
    Written Statement............................................    18
Mr. David A. Lebryk, Fiscal Assistant Secretary, U.S. Department 
  of Treasury
    Oral Statement...............................................    23
    Written Statement............................................    26
Ms. Courtney Timberlake, Deputy Chief Financial Officer, U.S. 
  Department of Housing and Urban Development
    Oral Statement...............................................    30
    Written Statement............................................    32
Mr. Timothy E. Gribben, Chief Financial Officer and Associate 
  Administrator for Performance Management, U.S. Small Business 
  Administration
    Oral Statement...............................................    35
    Written Statement............................................    37

 
                    DATA ACT IMPLEMENTATION CHECK-IN

                              ----------                              


                       Thursday, December 8, 2016

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:04 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Mark Meadows 
[chairman of the subcommittee] presiding.
    Present: Representatives Meadows, Jordan, Walberg, Carter, 
Grothman, Connolly, and Maloney.
    Mr. Meadows. The Subcommittee on Government Operations will 
come to order. And without objection, the chair is authorized 
to declare a recess at any time.
    This is our last hearing of the 114th Congress. As Mr. 
Connolly would so eloquently point out, it is a welcomed event.
    I would also want to thank the staff, both the majority and 
the minority staff, for just an incredible job that they have 
done throughout this 114th Congress. Many times we cruise along 
like a swan on top of the water, and they are paddling like 
crazy underneath the surface. So a real shoutout to them.
    But I also wanted to thank my ranking member. Not only is 
he a man of insight and truly principled, but he has become a 
dear friend and one in whom I think, hopefully, we can set an 
example of having differences, but having respect and, really, 
a bipartisan effort to address a number of issues.
    And the DATA Act is one of those issues that, honestly, was 
really a push from Mr. Connolly originally. And so I just want 
to thank him for that. I hope it doesn't go unnoticed that in 
squeezing in this third hearing on the DATA Act's 
implementation in the 114th Congress, it is really about 
setting a priority for transparency that this committee and 
many of you who are here today understand that it's not only a 
priority now, but will be a priority in the 115th Congress and, 
hopefully, well into the future.
    Until now, it has been very difficult to get reliable and 
useful and complete information as it relates to government 
spending and the American taxpayer dollars. And that's what 
makes the DATA Act so vitally important, and it holds a promise 
of, I believe, providing unprecedented insight into Federal 
spending.
    We're now 5 months away from delivering on that promise. 
There are some serious signs that some of the agency 
implementation is lagging behind. But let me just say, first 
and foremost, this committee is very appreciative of all the 
work that has been done so far and all the work that will be 
done in the coming months and years. And for Treasury and OMB, 
as they are leading the implementation efforts, they're 
responsible for telling the agencies what data to report and 
how to report it. And all the agencies, obviously, are 
responsible for their reporting on that spending data.
    So while there remain some critical aspects of the 
implementation that are off track, I think GAO reported in July 
of 2016 that OMB and Treasury had not designed or implemented 
the full controls and documented the processes that related to 
the review and the agency implementation. They also found that 
there was some concern with regards to the population of 
agencies and how they are required to report that spending and 
data under the DATA Act. In recent months, I guess, the 
agency's IG has reported some concerns on the readiness of the 
respective agencies to implement.
    Many of those reports, however, as they look at some of the 
issues from HUD, Housing and Urban Development's IG, show that 
they face serious challenges and are at risk of missing the May 
deadline. I'm very thankful, Ms. Timberlake, that you're here 
today representing HUD. And certainly, Mr. Gribben, for SBA and 
your work.
    But I think the participation of both of you kind of 
underscores the progress that we're making, and to have a 
hearing that is totally focused on what we have not done versus 
on what we have done I think would be appropriate. And so, 
hopefully, today that we can hear from GAO and some of the 
experts there in terms of what has been done, what remains to 
be a challenge, and which agencies are stepping up to do their 
part.
    I can tell you that the ranking member and I are both 
committed to making sure that this particular aspect of the 
DATA Act really is meaningful. What I don't want is to meet a 
May deadline. And I think today we'll hear some testimony that 
would suggest that we're going to perhaps miss that.
    I think OMB, Mr. Mader, this is your last hearing, as I 
understand. We thank you for your service to our country and 
certainly to OMB. I think the pilot program and the delays and 
what we're hearing there is a concern, just speaking frankly. 
And yet, at the same time, you and I have had some good 
conversations about not only moving forward, but how we do 
that.
    So I look forward to working with each one of you in the 
implementation. As we go forward, hopefully today, we'll 
establish some of these last 5-month hurdles that we have 
before implementation, and knowing that, even after May, that 
we're going to have quite a bit of tweaking that has to be done 
and perhaps some more focus on areas that were not performing 
as well.
    So I'd like to thank all of you for being here today. I 
look forward to your testimony. And I'll recognize the ranking 
member for his opening statement.
    Mr. Connolly. Thank you, Mr. Chairman. And let me begin by 
saying I want to express similar sentiments about our 
collaboration and your friendship.
    What an unlikely relationship: the chairman of the Freedom 
Caucus and this progressive Democrat from Northern Virginia. We 
don't pretend we're going to agree on everything. But you know 
what? Our relationship began with mutual respect, respect for 
each other's point of view, respect for the fact that we both 
were presumably motivated to try to leave this place a better 
place than we found it.
    And we found common ground where we could. And this 
subcommittee in the last 2 years reflects that spirit. And 
would that all such committees and subcommittees could operate 
that way. And we don't gloss over differences, but neither do 
we overreact to them.
    And I really appreciate your friendship, Mark, and your 
leadership of the subcommittee. And hopefully, in the next 
Congress, that collaboration and friendship will even deepen 
and we'll be more select in the number of hearings we have.
    But I thank you, and I wish everybody a happy holiday.
    This bipartisan agreement that, if implemented properly, 
the DATA Act can improve transparency and accountability in 
government spending. Under the DATA Act, agencies are required 
to report spending using a common set of data standards, and 
that information must be made publicly available for free 
access and download.
    The public benefits are potentially quite substantial. 
Currently, each agency reports spending data differently, using 
different systems and reporting requirements across the Federal 
Government. Implementation of the DATA Act will provide 
universal access and harmonious standards for Federal spending 
information as one consolidated electronic data set. This will 
enable data to be compared across agencies and to help expose 
duplication and waste in Federal spending. The DATA Act holds 
great potential for saving taxpayers money.
    Additionally, just last week, this committee heard about 
how the DATA Act can be used to restore the power of the purse 
here in the United States Congress.
    Unfortunately, Congress has failed to provide the funding 
necessary for agencies to fully implement the act. The CBO 
estimated that the DATA Act would cost about $300 million from 
fiscal year 2014 through fiscal year 2018.
    Since the passage of the act in 2014, Congress--no 
surprise--has appropriated one-tenth of that amount, $30.7 
million, to four agencies for implementation in fiscal year 
2016. GAO has noted that the lack of resources is a risk to 
timely implementation.
    Despite these funding challenges, the government has made 
some progress, real progress, on implementation since the act's 
passage and additional progress since our last hearing on this 
issue in April. In response to a GAO recommendation, OMB and 
Treasury established a Data Standards Committee in April, which 
will be responsible for developing and maintaining data 
standards.
    While progress has been made, implementation challenges 
remain that pose a risk to timely implementation. The new 
version of the DATA Act's Schema was released 4 months later 
than planned and just 1 year before reporting is required to 
begin under the act. Agencies will rely on the Schema for 
reporting guidance, and its delay could pose a risk to timely 
agency reporting. I know we want to hear more about that this 
morning, Mr. Chairman.
    I have concerns about further delay in OMB's contracting 
portion of the Section 5 pilot, which you mentioned, Mr. 
Chairman. Section 5 of the act requires OMB to run pilot 
programs to reduce reporting burdens for recipients of Federal 
grants and contracts.
    While GAO has found that OMB has made progress in ensuring 
that the design of the pilots meets statutory requirements and 
leading practices, the committee recently learned that the 
contracting portion of the pilot will be delayed until early 
2017. This is particularly troubling, given the effects it will 
have on the Federal contracting industry. I want to understand 
the reasons for the delay and how OMB intends to mitigate the 
risk this delay poses to timely implementation.
    Elections have consequences, but the new administration 
must not impair full implementation of this act. It's critical 
that the next administration make implementation of the DATA 
Act a priority and the Congress follow through with bipartisan 
commitment for its oversight and full funding.
    Mr. Chairman, I'll be a partner with you in conducting that 
oversight and advocating for the necessary funding in the next 
Congress.
    When Congress enacted the Federal IT Acquisition Reform 
Act, the process for investing in information technology 
potentially became a lot more efficient. I think the DATA Act 
shows similar potential and will complement FITARA and help 
agencies make smarter investments. These pieces of legislation 
should enhance the procurement process across the board.
    The DATA Act and similar government transparency efforts 
have tremendous potential and will be more important than ever, 
I believe, over the next 4 years. Congress will need to fully 
fund it, remain focused on the mission, and continue to hold 
hearings like this one to ensure successful implementation.
    And with that, I yield back. Thank you.
    Mr. Meadows. I thank the gentleman for his kind words, and 
I will reaffirm my commitment to him with regards to the 
funding aspect. As a fiscal conservative, it is vitally 
important that we get the proper funding to make sure that we 
implement that. So you have my reaffirmation of that 
commitment.
    I will hold the record open for 5 legislative days for any 
member who would like to submit a written statement. Before we 
recognize our panel of witnesses, I wanted to recognize one 
other group, the Data Coalition Group, that actually helped me 
understand this whole issue a lot better. And as I was going 
along assuming that everything was going along with the speed 
of light, they were the ones that helped me understand the 
potential for the delayed implementation. So I wanted to 
recognize them.
    We'll now recognize our panel of witnesses. I'm pleased to 
welcome Ms. Paula Rascona, director of the Financial Management 
and Assurance area at the U.S. Government Accountability 
Office. And along with Ms. Rascona is Peter Del Toro, the 
assistant director of strategic issues at U.S. GAO. His 
expertise on this issue will be important for the subject 
matter of this hearing, and he will as well be sworn in.
    The Honorable David Mader, controller at the Office of 
Financial Management at the office of OMB.
    Welcome.
    Mr. David Lebryk, fiscal assistant secretary of the U.S. 
Department of Treasury.
    Welcome.
    Ms. Courtney Timberlake, deputy chief financial officer at 
the U.S. Department of Housing and Urban Development.
    Welcome.
    And Mr. Timothy Gribben, chief financial officer and 
associate administrator for performance management at the U.S. 
Small Business Administration.
    Welcome to you all.
    And pursuant to committee rules, we'll have all witnesses 
sworn in before they testify. So if you'd please rise and raise 
your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. Please take your seat. And let the record 
reflect that all witnesses answered in the affirmative.
    In order to allow time for discussion, I would ask that you 
would limit your oral testimony to 5 minutes. Most of you are 
familiar with that. But your entire written statement will be 
made part of the record.
    So we will now recognize you, Ms. Rascona, for 5 minutes. 
Thank you.

                       WITNESS STATEMENTS

                   STATEMENT OF PAULA RASCONA

    Ms. Rascona. Thank you. Chairman Meadows, Ranking Member 
Connolly, and members of the subcommittee, I am pleased to be 
here today to discuss our oversight of the implementation of 
the Digital Accountability and Transparency Act of 2014 and 
steps that the Office of Management and Budget, Department of 
Treasury, and Federal agencies have taken. This hearing comes 
at an important time with the approaching deadline of May 2017 
and the administration transition.
    Today, we are releasing another report in a series of 
interim reports to Congress in response to our mandate. Our 
report examines the data governance structure and transition, 
implementation challenges reported by major agencies, 
governmentwide standards and technical specifications for 
reporting, and updated designs to the Section 5 pilot. My 
written statement highlights some of the key progress, 
findings, and the new recommendation from our report issued 
today.
    In brief, Mr. Chairman, OMB and Treasury have taken steps 
to further establish a data governance structure, issued 
additional guidance, and improve the design of the Section 5 
pilot. But more work is needed for timely and effective 
implementation of the DATA Act. In addition, agencies continue 
to face implementation challenges and are taking steps to 
mitigate those challenges.
    First, regarding data governance and the transparency to a 
new administration, OMB and Treasury have created a new Data 
Standards Committee to maintain and clarify existing standards 
and establish new data elements. Although this represents 
progress, more remains to be done, such as developing a clear 
set of policies and procedures to help ensure the integrity of 
data standards over time.
    The transition to a new administration presents potential 
risk to the DATA Act implementation efforts of shifting 
priorities or a loss of momentum. This further highlights the 
need for a robust data governance structure to provide 
consistent data management during a time of change and 
transition.
    Second, agencies continue to report challenges in their 
implementation plan updates. We identified four overarching 
categories of challenges in the August 2016 CFO Act agencies' 
implementation plan updates, including systems integration 
issues, a lack of resources, evolving and complex reporting 
requirements, and timely and consistent guidance. Agencies 
reported making changes to internal policies and procedures, 
leveraging existing resources, and employing manual and 
temporary system integration workarounds to help mitigate these 
challenges.
    The updated plans indicated that some agencies are at risk 
of not meeting the May 2017 reporting deadline because of these 
challenges. In addition, some agency inspector general 
readiness review reports indicate that their agencies are at 
risk of also not meeting the reporting deadline.
    The third area in our report is on data standards and 
technical specifications for reporting. OMB has made some 
progress with these efforts and issued additional guidance in 
November 2016 on reporting financial information for specific 
transactions and senior accountability official quality 
assurances. However, a lack of clarity with certain definitions 
remains.
    Agencies have made progress in creating and testing their 
data files using Treasury's data validation system, but 
additional work remains before the May 2017 deadline. Some 
agencies reported in their plan updates efforts to develop 
interim solutions by constructing these files manually until 
software fixes are completed. This can be burdensome and 
increase the risk for errors.
    The last area covered in our report is a pilot to reduce 
the recipient reporting burden. The revised designs of the 
grants and procurement portions of the Section 5 pilot program 
now meet DATA Act statutory requirements and partially meet 
each of the leading practices for effective pilot design. This 
represents significant progress since April 2016. However, the 
design of the procurement portion of the pilot does not clearly 
document how findings from reporting certified payroll will 
relate more broadly to the diverse range of other Federal 
procurement reporting requirements.
    In our report released today, we made a new recommendation 
to OMB intended to help ensure that the design of the 
procurement portion of the pilot better reflects leading 
practices by more clearly documenting this linkage.
    Mr. Chairman, this concludes my prepared remarks. I would 
be happy to answer any questions that you or the other 
subcommittee members have. Thank you.
    [Prepared statement of Ms. Rascona follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you so much.
    Mr. Mader, you are recognized for 5 minutes.

                    STATEMENT OF DAVID MADER

    Mr. Mader. Chairman Meadows, Ranking Member Connolly, 
members of the committee, thank you for inviting me here today 
to discuss the progress that we are making towards the 
implementation of the DATA Act.
    We have made significant progress since we last discussed 
this issue with the subcommittee in April. Since April of 2016, 
OMB has provided additional policy guidance to Federal agencies 
on the DATA Act implementation. We've delivered on our 
commitment to monitor agency progress, and we've implemented a 
governance structure over the data standards.
    First, on May 3, we issued guidance, which included 
requirements for Federal agencies to submit data from 
designated authoritative sources for display on a future 
USASpending.gov Web site.
    Second, we issued guidance on November 4 regarding 
reporting intergovernmental transfers, reporting awards, and 
assurances from our senior accountable officials regarding the 
validity of the data that will be submitted to the new Web 
site.
    Third, we've implemented continued monitoring of progress 
towards the implementation. As you recall, back in April, when 
Dave and I were here, we said that we were beginning to meet 
with each of the 24 CFO Act agencies to discuss their detailed 
implementation plans. I'm pleased to report that Dave and I and 
our teams completed those in-person visits with all of those 24 
agencies, and we've received written updates this past summer 
from each of the 24 agencies with regard to their 
implementation plans between now and May of 2017.
    When we looked at the updated plans this summer, we 
identified nine agencies where Dave and I conducted subsequent 
in-person reviews to better understand some of the challenges 
that they were facing between now and May of 2014.
    Fourth, we've developed recommendations to modify the 
existing financial assistance provision in our uniform grants 
guidance, which will support the alignment of the final data 
standards with the DATA Act.
    And fifth, we implemented a governance structure for 
USASpending regarding the data center. And as I think we've all 
discussed over the last year, that it's important for us to and 
we've adopted the recommendations from GAO with regard to 
building out this governance structure. So this is a governance 
structure that will exist for years to come as we develop 
standards and as we refine the standards going forward.
    Lastly, we've made continued progress in the Section 5 
pilot to reduce the unnecessary reporting burden for Federal 
grant and contract recipients. The HHS pilot for grants is well 
underway, and we fully expect that the final report on that 
study will be issued in 2017, in August.
    As we have discussed, and as my colleague from GAO has 
testified, we've made the adjustments to the procurement pilot. 
Unfortunately, when we began developing the tool that was going 
to actually host the ingestion of this data, we identified some 
concerns around the robustness of the cybersecurity aspect of 
that system, and we've had to actually restart that process. 
And as GAO has mentioned, we don't anticipate starting the 
actual data collection now until either late January or early 
February.
    But as we discussed at our April hearing, we are going to 
issue a report, even if it's interim, in August of 2017, and we 
will continue to collect, as we committed in the April hearing, 
to collect a full year's worth of data and then modify the 
report accordingly once we receive all of the data.
    Thank you for the opportunity to testify today, and I look 
forward to our conversations.
    [Prepared statement of Mr. Mader follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you.
    Mr. Lebryk, you are recognized for 5 minutes.

                  STATEMENT OF DAVID A. LEBRYK

    Mr. Lebryk. Chairman Meadows and Ranking Member Connolly, 
thank you for inviting me here to talk about Treasury's efforts 
to implement the DATA Act.
    I'd like to begin by thanking the committee for your 
continued interest and oversight on this issue. When we've been 
implementing this pretty complex and robust legislation, your 
interest in these hearings have be very useful to us as we've 
been going back to the agencies and talking to external 
stakeholders about the importance of the effort and, indeed, to 
make sure that we're making meaningful progress toward 
implementation of the May 2017 deadline.
    I also think this is the fourth and perhaps final time that 
Dave Mader and I will testify before Congress, and I also want 
to express a personal thank you to Dave. One of the real 
pleasures in this process has been working with Dave. His 
leadership and his commitment from OMB have been critical to 
our success, and I want to thank him publicly for that.
    When I testified before the committee in April, we provided 
an update on our use of the agile approach in terms of 
implementation. And so today what I would like to talk a little 
bit more about is the three workstreams that we have 
responsibility for in Treasury, and that is the establishment 
of the Schema, the establishment of a Broker, and then 
ultimately implementation of a new Web site to present the 
data.
    I'll start with the Schema, which is really one of the 
foundational points of the whole success of the effort. And the 
Schema is really taking--we talked about those 57 elements that 
need to be reported to the government as a whole. In actuality, 
around 400 elements that need to be reported. And so what we 
have done is developed a Schema that identifies to the agencies 
what needs to be reported and how it needs to be reported to 
the Treasury, into the Broker. That was a very extensive effort 
and one that we sought public comment on and public input. And 
I think we're in a position now to have finalized the Schema, 
and agencies are using it to compile their files.
    The second piece that we've had responsibility for is the 
data Broker. And that is when the information comes in, it 
needs to reside in a certain place. And the Broker is the place 
where we ingest the data from files from the agencies, have the 
ability to validate the information, and then ultimately have 
the agency certify the information as valid before we present 
it on the Web site.
    Here, we also used an agile approach, in which we used a 
number of data versions, had the agencies come in, in what we 
called our sandbox just to test and to make sure that their 
data was in the right file format and would pass the Broker. 
And that process has been an iterative one that began about 6 
or 8 months ago.
    I can tell you that in having managed other large-scale 
efforts, doing something like this in the past in the 
government has oftentimes taken 3 or 4 years. Our ability to do 
this in a 6-month process is attributable to the use of the 
agile development process and the iterative progress and the 
user-centric process.
    The final piece I want to report on is development of the 
USASpending Web site. We know that how the information is 
presented and its usability is critical. So we've had an 
OpenBeta.gov site where users can come in and sort of give us 
their input and their feedback on what that site should look 
like, how the information should be presented, how they will 
potentially use the information.
    And what we know is that when someone comes to the Web site 
to use the data, they tend to come for three reasons. The first 
reason is they just want the information that we provide. The 
second is they might want to use the tools that we have 
available on the Web site. And the third kind of user 
oftentimes just comes in and wants the data so that they can 
actually manipulate the data or use the data or do the analysis 
around the data however they choose. We're designing the new 
USA Web site so that users can have an effective and successful 
experience in all three of those areas.
    I've attended several forums recently where it's very clear 
that there's a strong worldwide trend for more data. And it's 
not surprising that there's more interest in transparency and 
more interest in usability, and, as we like to talk about in 
this project better data, better decisions, and better 
government.
    It's clear to me that what we've been doing with the Schema 
and our approach, the agile approach, is very applicable not 
only to what we're doing in this country, but also at the State 
and local governments as well as international governments. The 
approach we've taken is extensible, so that while we have 400 
elements that we're reporting on today, we realize that there 
are more things we can include going forward, one reason why 
the Data Standards Committee is so important.
    We also realize that this foundational approach, we 
believe, will have a material impact on other areas across 
government, whether it be in IT, whether it be in human 
resources, or performance across government.
    I would like to conclude by saying that while Treasury's 
aspect of the implementation is on track, there is still a 
significant amount of work that needs to be done to meet the 
May 2017 milestone. Our team has been working to complete the 
data infrastructure to support the Web site, develop the new 
and improved USASpending Web site, and work with the agencies 
to facilitate their submissions, and we'll continue to work 
with them over the coming months.
    But in my experience over 25 years in the Federal 
Government, these types of implementations are not simple or 
even perfect, even when well planned and well managed. The data 
will not be flawless or fully complete in May, since this is 
the first time this has been collected and linked in this 
manner.
    While much attention has been paid to the May deadline, I 
think it's important to note that May is just the beginning. We 
at Treasury are committed to continuously improve the data by 
working with agencies and the oversight entities to increase 
spending transparency and meet the goals of the DATA Act.
    That concludes my opening remarks.
    [Prepared statement of Mr. Lebryk follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you so much.
    Ms. Timberlake, you are recognized for 5 minutes.

                STATEMENT OF COURTNEY TIMBERLAKE

    Mr. Timberlake. Good morning. On behalf of Secretary Julian 
Castro, I want to thank you, Chairman Meadows, Ranking Member 
Connolly, and distinguished members of the subcommittee, for 
the opportunity to discuss HUD's efforts to increase 
transparency and accountability through implementation of the 
DATA Act.
    I was honored to join HUD this past August to serve as the 
deputy chief financial officer. I appreciate the subcommittee's 
focus on implementation of the DATA Act, and I am pleased to 
report that HUD will substantially meet DATA Act reporting 
requirements by May of 2017.
    HUD has made significant progress and is using the 
implementation of the DATA Act to change business processes, 
improve data quality, and evaluate future financial and 
programmatic technology needs.
    Using the Department of the Treasury and OMB's DATA Act 
Implementation Playbook as a foundation, HUD has developed a 
plan that follows the eight steps outlined in the Playbook. 
Through proactive planning and management, HUD is on track with 
completing the milestones.
    DATA Act implementation is a priority for HUD, and we have 
dedicated existing resources by aligning DATA Act support with 
other initiatives.
    HUD's strategy to implement the DATA Act accounts for 
varying timelines and requirements across HUD, FHA, and Ginnie 
Mae. Our strategy is rooted in strong cross-organizational and 
interagency collaboration, as well as effective risk management 
throughout multiple stages of implementation. This strategy 
works to align existing resources, best practices, and 
schedules to promote HUD's commitment in complying with the 
DATA Act and remain in compliance beyond the initial May 2017 
DATA Act submission.
    HUD will continue to submit data to USASpending.gov for 
grants, cooperative agreements, and vouchers. We are able to 
utilize the expertise and resources of our shared service 
provider at Treasury to provide financial and award data.
    During implementation, HUD has identified challenges, but 
through collaboration with our shared service provider, we 
continue to resolve these shared issues.
    The variety of source systems within HUD requires a 
standardized approach to data validation. When implemented, the 
DATA Act reporting requirements will strengthen agency data 
policies and assist in its ongoing data standardization 
efforts.
    To fully realize this opportunity, HUD will continue to 
navigate the complex environment of new and legacy systems. We 
will leverage the shared service environment and existing IT 
modernization efforts to overcome these data challenges.
    One of the primary goals of DATA Act implementation is to 
provide a complete, understandable picture of Federal spending 
to the public. DATA Act submissions and reporting processes 
will be audited and reviewed by HUD's inspector general and GAO 
in multiple contexts.
    With that awareness, we will continue to work with our IG 
and GAO, which includes reviews of our overall IT strategy to 
ensure compliance with the DATA Act.
    To help reduce costs, HUD plans to utilize and leverage its 
relationship with our shared service partners at Treasury to 
complete submission of data to the data Broker. However, HUD 
will incur additional costs associated with support services, 
ongoing reviews, audits, and updates as required by the DATA 
Act.
    The act requires agencies to provide standardized data to 
inform taxpayers, private industries, and Federal agencies on 
governmentwide spending initiatives. Under the DATA Act, HUD 
will have the opportunity to expand data-driven decisionmaking 
to further inform its Federal spending efforts, enhancing 
accountability for its programs.
    HUD is dedicated to performing transparent reporting. We 
plan to leverage the data extracted from source systems to help 
management make informed business decisions for our agencies, 
our stakeholders, and the American taxpayer.
    On behalf of HUD, I appreciate the opportunity to testify 
today. HUD has made significant progress in implementing the 
requirements of the DATA Act. We look forward to sharing our 
detailed financial data with the public, realizing the benefits 
of standardized data, and participating in the conversations 
our data will spark.
    I welcome any questions you may have. Thank you.
    [Prepared statement of Ms. Timberlake follows:]
    [[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you, Ms. Timberlake.
    Mr. Gribben, you are recognized for 5 minutes.

                STATEMENT OF TIMOTHY E. GRIBBEN

    Mr. Gribben. On behalf of Administrator Maria Contreras-
Sweet, I want to thank you, Chairman Meadows, Ranking Member 
Connolly, and distinguished members of the subcommittee, for 
this opportunity to discuss SBA's efforts to increase 
transparency and accountability in financial management through 
implementation of the DATA Act.
    I am pleased to inform the subcommittee that SBA has 
successfully generated the required DATA Act files and passed 
the Broker's validation tests. In fact, SBA has the distinction 
of being the first CFO Act agency to complete its 
implementation work 6 months ahead of schedule.
    SBA initiated the project in September 2014 with an overall 
timeline to complete the project in compliance with DATA Act 
reporting requirements. SBA's financial systems are current 
generation, and data quality standards have been in place such 
that we can reconcile information that we send to 
governmentwide systems like USASpending and FPDS.
    SBA also benefits from having financial systems that are 
supported by qualified functional and technical leads, and we 
had already completed the work necessary to link award data 
between our financial systems and our management system, which 
is the most difficult requirement inherent in DATA Act 
reporting.
    For some challenges, SBA currently reports financial 
assistance awards to USASpending for loan guarantees, for 
business direct loans, SBIC debentures, grants and cooperative 
agreements, and contract awards, and we are able to validate 
the reported data against our internal data systems.
    Now that the awards file is being provided by the Broker 
and the agency is not able to modify that file, the SBA does 
not know what challenges may exist in the future with data 
reconciliation. We are especially concerned about how the 
reporting cadences between the different award submissions may 
affect our ability to reconcile the awards file with the 
financial file.
    SBA's programs are executed through a variety of third-
party partners, including financial institutions. And while 
data capture fields have been strengthened through the use of 
validation edits in recent years, challenges to data capture 
requirements will take time to communicate to these third-party 
organizations and to train them.
    SBA will utilize system controls as much as possible to 
obtain consistent quality data at points of entries to our 
automated systems, and we will strengthen data policies and 
standards when needed.
    SBA anticipates a significant increase in public inquiries 
and requests for information due to incomplete understanding of 
the reporting complexities for SBA's loan guarantees and surety 
bond program.
    Further, announced audits from our inspector general, as 
well as the support that we have to provide for yearly IT 
security reviews and audits, without additional staff will 
place a burden on the limited staff we currently have, and this 
necessitates some additional resources.
    To help reduce costs, SBA plans to utilize the 
functionality of the Treasury-developed data Broker to lessen 
the burden of merging and validating the agency's data. 
However, presubmission validation and extensive testing of the 
data files to ensure proper reconciliation will be required by 
the agency.
    We will implement tools to incorporate requirements for 
DATA Act, as well as agency analysis reporting requirements, 
and we'll develop automated processes at available 
opportunities to reduce errors and the costs associated with 
human intervention. But despite all of these efforts and 
practices, additional resources will be needed.
    SBA plans to leverage the data extracted from the source 
systems to help management make better-informed management 
decisions. This will involve acquiring some business 
intelligence and analytics tools. SBA will use the new 
reporting requirements as an opportunity to modernize our data 
standardization and data quality programs as well.
    SBA's ability to understand the benefits that can be 
realized through the implementation of the DATA Act has been 
informed by our participation in Treasury's technology pilot. 
By being able to see the visualization created with our FY 2014 
grants and contracts data, we have been able to identify four 
key benefits that we believe should be realized by agencies 
upon implementation.
    One is greater transparency, which would help us reduce 
fraud and mitigate risk. Two is providing greater insights by 
helping us identify efficiencies and inefficiencies in the 
delivery of our programs. Three is customized services by 
giving us greater flexibility to segment populations to 
customize our services to the public. And four, to better 
enable data-driven decisions by providing data that facilitates 
faster, more accurate performance-based decisions.
    In conclusion, on behalf of SBA, I appreciate the 
opportunity to testify today and share with you information on 
the significant progress we have made in implementing the 
requirements of the DATA Act, and in particular the work that 
we have accomplished with Treasury on devising a technology 
solution for the Broker. And I welcome any questions you may 
have.
    [Prepared statement of Mr. Gribben follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you so much for your testimony. Thank 
all of the witnesses for their well-thought-out and well-
prepared testimony.
    I'll recognize the gentleman from Michigan, the vice chair 
of the subcommittee, Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    And, indeed, this has been a valuable subcommittee looking 
at issues over the course of this term, doing what we're 
supposed to do here in the people's house, doing oversight over 
what goes on in very important agencies and the support 
agencies that will assist us in knowing what's taking place.
    Yesterday, we had a hearing where one of the pieces of 
information that came out--and thanks for the panel for being 
here--revolved around a Washington Post article that came out 
earlier this week illustrating why the DATA Act is so 
important, as well as other evaluative tools that we put in 
place. We found out that--sadly, it had to come from Bob 
Woodward--talking about the Department of Defense having a 
report that showed $125 billion of savings over 5 years simply 
by addressing administrative waste.
    What was challenging and frustrating is the fact that DOD 
has attempted to hide that, squash that information that they 
requested to be developed because it would impact their ability 
to spend if Congress got wind of it.
    Well, we did get wind of it. And when you see $125 billion 
of cost savings that could assist--I mean, that's at the level, 
reportedly, of operational costs for 50 Army brigades or 10 
carrier groups--that starts to be real money, but more 
importantly for our troops to get away from that waste.
    So, Ms. Rascona, let me ask, how might full implementation 
of the DATA Act improve our ability to identify that kind of 
savings at DOD?
    Ms. Rascona. Well, the DATA Act is not only going to 
provide more transparency to where the funds are being spent, 
but hopefully it's also going to provide a vehicle for DOD 
management and other agencies to manage their funds and manage 
their programs and make sure that as obligations are incurred, 
that they are de-obligated in the proper time.
    Another benefit of the DATA Act should be through oversight 
on the part of not only DOD management, but their auditors and 
also the Congress, and this should give more visibility to how 
DOD is spending their money.
    The third area would be through data analytics, where DOD 
can analyze the data and look for areas of fraud, risk, abuse, 
and potentially improper payments, and recover funds through 
that mechanism also.
    Mr. Walberg. What can you tell me about DOD's readiness 
relative to data?
    Ms. Rascona. We just received the IG's report regarding 
DOD's readiness. And in their report, they indicate that DOD is 
going to be requesting an extension. They have the opportunity 
to use three extensions of 6 months each before reporting their 
data. It's our understanding that the letter has been drafted, 
but it has not been sent forward for signature yet. We also 
know that OMB and Treasury were informed of this in August, so 
they may have some more insight for you.
    Mr. Walberg. I guess I'd move over there, because of the 
responsibility, Mr. Mader, as you know, to report any request 
for extensions to Congress and this committee. Has a request 
been made yet?
    Mr. Mader. We don't have a formal request yet. As my 
colleague from OMB testified, we understand that a letter has 
been drafted, but the director has not received it yet.
    Mr. Walberg. Based upon that, does it appear that DOD will 
be ready to fully implement the DATA Act by the extended 
statutory deadline, which could be upwards of 6 months?
    Mr. Mader. Congressman, I'm not in a position today to 
speculate as to whether they're going to be ready 6 months 
after August of 2016. And I say that because of, sort of 
wearing one of my other hats in overseeing all of the Federal 
financial audits of all of the agencies, I'm intimately 
involved in the DOD efforts to move towards a clean opinion, 
and that's been going on, as you know, for a number of years 
now.
    Mr. Walberg. A long time.
    Mr. Mader. A number of years.
    And not making excuses for my colleagues from DOD, but the 
complexity and scale of that organization, the number of 
separate financial management systems and management systems is 
a real challenge. And as I think my colleague from SBA 
testified, sort of linking up those management systems, the 
multiplicity in the case of DOD management systems with 
financial systems, is a big lift.
    Mr. Walberg. Well, I appreciate that.
    And, Mr. Chairman, with appreciation of that, but also now 
having evidence that has been leaked to us in an article about 
$125 billion of waste, and the fact that DOD has given clear 
indication by what they've said and what they've done with it, 
that they want to cover it up, this is an important thing that 
we push, regardless of the complexity. We're talking about the 
lives of troops. We're talking about the security of this 
country. We're talking about remaining on top as a strong 
power. So let's keep pushing.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from Virginia, Mr. 
Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    And let me just say to my friend from Michigan, I associate 
myself with his remarks, and I am so pleased he brought it up. 
We can't ignore this. And it is the product, the byproduct, of 
a siloed system at the Pentagon that exempts itself from 
everything. The Pentagon stands out. It's one of the few 
Federal agencies that cannot produce a certified audit. Let's 
call it an unqualified audit.
    The biggest spender, the biggest procurer, the biggest 
employer in the Federal Government, and it can't abide by those 
rules. It exempts itself from the GSA schedule of purchasing 
where we get discounts and we can try to get best price for 
off-the-shelf products. No, no, they've got their own.
    When we passed FITARA, we had to sort of dance around the 
Pentagon, because if we had gone there we would have had 
jurisdictional problems here and they would have objected. And 
then, ironically--not you, Mr. Mader, but a previous person at 
OMB, then, of course, objected to the bill because it didn't 
include DOD. I thought, well, we'd love to include DOD. They 
didn't want to be included. And we don't want to keep the bill 
bottled up forever on that.
    And then we have $125 billion. I mean, that is the budget 
of some whole Federal agencies. What we could do with that.
    And the gentleman from Michigan makes an excellent point. 
And, frankly, at some point, this committee could make a real 
contribution without designing to step on toes in, frankly, 
examining some of these issues a little bit more in depth in 
terms of processes that are not in place and rules and 
regulations that apply to other Federal Governments in terms of 
transparency and reporting that are not abided by because the 
Pentagon exempts itself. And it's so big we sometimes, frankly, 
as a Congress, have turned a blind eye to it.
    So I applaud my colleague from Michigan, I associate myself 
with those remarks, and I would hope in the next Congress, this 
committee might try to make some contributions in trying to put 
systems in place that would prevent this kind of scandal from 
recurring. And I join him in that.
    Mr. Mader, the goal here with the DATA Act is to have 
harmonized reporting standards, full transparency, and so I can 
look across the Federal family, 24 agencies, and see the same 
format, formatted data, so that I can actually compare apples 
and apples as opposed to this hodgepodge we have right now. Is 
that correct?
    Mr. Mader. That's correct, Mr. Congressman.
    Mr. Connolly. And what would be your best estimate of when 
we can achieve that goal?
    Mr. Mader. So, if you remember, under the DATA Act we're 
adding new data elements, right? So we've been reporting spend, 
but we are going to have actually more spend, so we're going to 
have in excess of 3 billion as opposed to the little over 2 
billion, because we are adding new spend into the equation.
    The other significant, and it's a real benefit, is now 
we're going to report that spend for, let's say, a contract, 
right? And we're going to be able to appoint that contract back 
to, what was the appropriation, what was the program activity, 
and what was the object class?
    Mr. Connolly. Right.
    Mr. Mader. And that's the real power, then, of both within 
a department, but then horizontally saying, who's using funds 
for this kind of activity?
    Mr. Connolly. I agree, and thank you. But I'm Citizen Q, 
and I want to see how my Federal Government is spending and 
accounting for spending. When will I be able to go online in 
any Federal agency, I'm going to see that harmonized set of 
standards so that I can actually follow the picture? When will 
the DATA Act be fully online and implemented?
    Mr. Mader. For the vast majority of the CFO Act agencies 
who represent in excess of 90 percent of the governmentwide 
spend, we're going to be able to see that in May.
    Mr. Connolly. In May?
    Mr. Mader. In May of 2017, right.
    Mr. Connolly. All right. Mr. Meadows and I are going to be 
ready, I think, with a hearing.
    Mr. Mader. No, we appreciate the healthy skepticism. But I 
know there has been a lot of concern about, will this work? And 
I think my colleague from SBA--and we've been using them as our 
prototype, because while they may not be the biggest 
department, they actually have all of the elements, all of the 
complexity that a DHS has. So we said, let's use them as our 
proof of concept. And Mr. Gribben just testified, they actually 
dumped all their data into the Broker and they're generating 
reports. It works.
    Mr. Connolly. But SBA is not part of the pilot project for 
grants and contracts, right?
    Mr. Mader. No, HHS--well, two separate things. So the pilot 
for Section 5 is to reduce burden, separate and distinct from 
the rest of the DATA Act.
    Mr. Connolly. Right. But SBA gives a lot of grants and 
contracts.
    Mr. Mader. Yeah.
    Mr. Connolly. And it might be useful if they were part of 
the pilot project with respect to that.
    Mr. Mader. Well, the pilot--so HHS, as you know, is sort of 
our agent to execute that. And the reason we selected HHS is 
because they are the 800-pound gorilla with regard to grants.
    Mr. Connolly. Yeah.
    Mr. Mader. So they work with the other grantmaking 
agencies. So Tim and other agencies know what HHS is doing.
    But, again, I go back to my point, is there was any concern 
on this committee's point as to whether the concept that we 
introduced back in 2014 about the Broker and what Treasury was 
going to do and agile development, I'm here to say, it works. 
He just testified to it. It works.
    Mr. Connolly. Yeah. And just a final point. How cooperative 
is the Pentagon with what we're trying to do with the DATA Act 
in light of what you just heard Mr. Walberg and myself say with 
respect to the $125 billion, I don't know, lost money?
    Mr. Mader. I can't comment on that Post story. But with 
regard to----
    Mr. Connolly. No, I'm not asking you to. I'm asking you 
about compliance and cooperation.
    Mr. Mader. They are cooperating. And, actually, what we're 
trying to do is leverage the work, Congressman, that we're 
doing on trying to get them to be audit ready to help them with 
the DATA Act. And it's the same folks that are working on both 
of those initiatives.
    So we, Dave and I, have met with them multiple times in 
person. They're not sitting back saying, we're exempt. I mean, 
they are working on it.
    Mr. Connolly. Good. And just to clarify, so when you said 
by May of next year full, hopefully, 90 percent implementation 
compliance, you're including the Pentagon?
    Mr. Mader. They're going to--so the Pentagon----
    Mr. Connolly. That was a long pause, Mr. Mader.
    Mr. Mader. No, no, the Pentagon, will continue to report--
they are going to continue their full appropriation, right? 
What they're going to be deficient in is actually making some 
of these quality assurance linkages between our financial 
system and the management system.
    Because, remember, we've been criticized, and rightfully 
so, in the past by GAO about the quality of the data that's 
coming in, because if it came in from the procurement system 
but it doesn't match with the financial system you've got to 
wonder which one is right.
    So the linkages between these two that both Courtney and 
Tim have testified to is critical. That's where DOD is running 
into significant challenges, because of the multiplicity of 
their procurement systems and their financial systems.
    Mr. Connolly. Yeah. Thank you.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from Georgia, Mr. 
Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    And thank all of you for being here.
    Ladies and gentlemen, on October the 8th, 2016, Hurricane 
Matthew made landfall, bringing destructive winds and flooding 
to the Southeast, including the First Congressional District of 
Georgia, which I have the honor and privilege of representing.
    The damage was widespread, but one community that was 
particularly hard hit was the Westlake Apartments in Savannah. 
Westlake Apartments is a privately owned 100-unit property that 
is part of a Section 8 housing assistance payment contract with 
HUD. The property suffered severe water damage from the storm 
and families were displaced and forced to turn into shelters.
    Although the responsibility lies with the private property 
owner to provide safe and clean housing for Section 8 tenants, 
it took almost 2 weeks--almost 2 weeks--to contact the Westlake 
owner, relocate the displaced residents, and to begin 
inspections.
    In total, 22 units were found to be uninhabitable and unfit 
for HUD subsidies. It took several official letters from my 
office and numerous conference calls from HUD to finally hold 
the owners accountable, despite these owners being legally 
obligated through their contract with HUD.
    One of the mechanisms HUD uses to hold private property 
owners accountable is withholding subsidies. If a Section 8 
owner does not provide clean, safe housing or fails to relocate 
residents, HUD is supposed to withhold subsidy payments. In 
this situation, it was never clear if the payments were 
withheld, when they were going to be withheld, or where the 
subsidy was going. Was this money going to be used to 
immediately move displaced residents out of the shelters and 
into temporary housing?
    My constituents, some of whom are still displaced, even 
today, December the 8th, some are still displaced, they deserve 
to know, they deserve to know, and they need to know.
    What happened at Westlake Apartments was completely 
unacceptable. And while I am grateful to HUD for their work 
with us to correct the situation, we need to make sure 
something like this never happens again.
    The DATA Act, if it's fully implemented, would provide 
much-needed clarity into how HUD spends its funding and then if 
withholding subsidy payments is an effective enough mechanism 
to hold owners accountable.
    Ms. Timberlake, is HUD fully committed to implementing the 
DATA Act, as required by law, and providing more transparency 
into how these subsidies are spent in the Section 8 housing 
program?
    Ms. Timberlake. Congressman Carter, thank you for the 
question. HUD is committed to complying with the DATA Act. I 
understand that you and Secretary Castro have previously spoken 
about this issue.
    Mr. Carter. On numerous occasions. In fact, I've invited 
Secretary Castro four times to visit this area. Haven't seen 
him yet, but I've invited him four times. He hasn't been down 
there.
    Look, you know who the face of the Federal Government is in 
the First Congressional District? You're looking at it right 
here. You know who had to face these residents and tell them 
about this? Right here.
    Now, that's fine, I'm a responsible person and I can handle 
that. But I don't want to have to call the Secretary of HUD and 
invite him down four times and he has no interest at all in 
coming down there and helping these people.
    These people were displaced. Have you ever been displaced 
out of your home? Have you ever had a flood at home? What 
happened? Tell me what happened. I need to go back and I need 
to tell these people what happened. So you tell me what 
happened.
    Ms. Timberlake. Congressman Carter, I understand that your 
staff has received updates on the progress that the owner has 
made.
    Mr. Carter. We're not talking about progress. I'm asking 
you what happened. Why did it take 2 weeks to contact the 
owner? Were the subsidies withheld?
    Ms. Timberlake. Sir, my office is not involved in 
overseeing Section 8 multifamily housing properties.
    I do want to go back to a point you made earlier. The DATA 
Act is focused on creating more transparency in financial 
reporting related to all of our projects. I'd be happy to take 
back your specific concerns to my colleagues.
    Mr. Carter. How can I take them any higher than taking them 
to the Secretary himself? I spoke to him on two different 
occasions, invited him four different times to come down and 
see what was going on here. Haven't seen him yet.
    Ms. Timberlake. Congressman Carter, I would be happy to 
take back your concerns.
    Mr. Carter. I hope you will. Thank you very much.
    Ms. Rascona, can you help me here? If we implement the DATA 
Act, do you think that this will help in a situation like this?
    Ms. Rascona. I can't speak to this particular situation, 
but I do believe that the DATA Act, once fully implemented, and 
you get those appropriate linkages between financial and 
performance data, will help program managers better monitor 
their programs, be more responsive to inquiries. And hopefully, 
through data analytics, they'll be able to identify areas of 
risk, improper payments, and other areas that need management 
attention.
    So the sooner we can get the full act implemented, I think 
the better off we'll be from a management perspective.
    Mr. Carter. And do you think it'll help us in Congress to 
be able to actually see what's going on there?
    Ms. Rascona. I would hope so.
    Mr. Carter. I would hope so too, because right now it ain't 
good. I'm just telling you.
    Look, folks, I'm a responsible person and I'm perfectly 
willing to meet with these people. I'm perfectly willing to 
accept my responsibility. But this was just, I'm sorry, this 
was just poor, poor, poor performance on behalf of HUD. This 
should have never happened. Can you imagine having to take your 
family, being displaced?
    Mr. Meadows. The gentleman's time has expired.
    Mr. Carter. I yield.
    Mr. Meadows. The chair recognizes the gentleman from Ohio, 
Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    This committee is a result of a committee hearing we had 
last week where we tried to get answers to certain questions. 
GAO was here and said they couldn't give us the answers to many 
of the questions we had because Treasury and OMB weren't able 
to provide them the information. That seemed to us to be 
information that should be readily available.
    We know that that was accurate, because it took Treasury 
until just this week to give us information that the committee 
had been asking for, for over a year. So let's see if we can 
get some answers, Mr. Chairman, to just some basic questions.
    My understanding is there's three broad categories. So 
we've got the fee category, that the various agencies in the 
Federal Government collect fees. We've got fines and penalties 
that the various agencies across the Federal Government 
collect. And then we also have settlements. Largely, that's a 
Department of Justice issue, but it could be other agencies, I 
suspect, as well.
    So, Mr. Mader, can you tell me the overall amount that the 
Federal Government collects in those three categories, fees, 
fines and penalties, and settlements, annually?
    Mr. Mader. Congressman Jordan, I don't have that data 
today. I'm not sure what that number is.
    Mr. Jordan. Mr. Lebryk, can you tell us?
    Mr. Lebryk. I can tell you the Bureau of the Fiscal Service 
reports for the government as a whole. So we do governmentwide 
reporting. And the figure that we place in a combined statement 
of the Treasury, that number of total fines, penalties, and 
forfeitures is $14,134,491,326.11.
    Mr. Jordan. Say it again. Fourteen billion?
    Mr. Lebryk. Fourteen billion, 134 million----
    Mr. Jordan. You don't have to give all that. Fourteen 
billion, got it. What about fees?
    Mr. Lebryk. That is included in that total figure, and that 
is for fiscal year 2015.
    Mr. Jordan. Only $14 billion?
    Mr. Lebryk. That we have reported in the combined statement 
in fiscal year 2015.
    Mr. Jordan. OMB issues a document that says fees alone are 
$534 billion. Why the discrepancy?
    Mr. Lebryk. I don't know where that number comes from.
    Mr. Jordan. You're saying all three categories, fees, fines 
and penalties, and settlements, those three broad categories, 
it's a total of $14 billion?
    Mr. Lebryk. Fines, fees, and forfeitures.
    Mr. Jordan. Fines, fees, and forfeitures.
    Mr. Lebryk. The settlement number, I don't have that figure 
in front of me.
    Mr. Jordan. Where does the $534 billion number come from, 
Mr. Mader, that is in the OMB document for fees?
    Mr. Mader. I'm not sure what document, Congressman, you're 
referring to.
    Mr. Jordan. I think it's the Presidential budget, if I 
remember. Yeah. The Presidential budget lists, for 2017, $534 
billion.
    Mr. Mader. Then the number is right if it's in the 
President's budget, sir.
    Mr. Jordan. Okay. So OMB says it's $534 billion just in 
fees, and Treasury says it's $14 billion in fees, fines, 
penalties, and settlements. Who's right?
    Mr. Lebryk. Sir, I think the number, the larger number 
you're referring to is offsetting receipts. The Federal 
Government takes money in, in two major buckets. One is normal 
receipts in terms of tax collections and the like. The bucket 
you're talking about, which has the 500-and-some billion in it, 
is things like sales of postage stamps, park fees, and a number 
of other things like that.
    The number I gave you is a much more defined, narrow 
number. The larger number you have there is a broader, more 
expansive number.
    Mr. Jordan. Well, the number I gave you is fees, right? You 
even said fees in your definition when you were talking about 
offsetting receipts. You said fees; you used that when you 
described it. That's what I asked, fees.
    Mr. Lebryk. One element, one sub-element of the number that 
you have is fees, yes.
    Mr. Jordan. Okay. What's your thoughts on Congressman 
Palmer's legislation that would say these three categories, 
instead of the agencies being able to spend it, these come back 
to Treasury and are subject to the appropriations process and 
congressional oversight and control?
    Mr. Mader. Mr. Congressman, the administration doesn't have 
an opinion on that legislation.
    Mr. Jordan. Not at all?
    Mr. Mader. Not at all.
    Mr. Jordan. What about Treasury?
    Mr. Mader. The administration, we speak for Treasury.
    Mr. Jordan. The administration? Okay, got it. Can you tell 
me----
    Mr. Mader. They're still part of the administration, last I 
checked.
    Mr. Jordan. I understand, but I was just going to see if he 
would offer a different response.
    Can you tell me what just the Department of Justice in 
settlements occurred in 2016?
    Mr. Lebryk. Sir, I don't have that number in front of me.
    Mr. Jordan. You don't have that number?
    Mr. Mader.
    Mr. Mader. I don't have that number, no, sir.
    Mr. Jordan. That's a pretty important number, because a lot 
of us feel like that's not just settlements, that's a shakedown 
operation that's going on over there. We'd like to have that.
    All right. Mr. Chairman, thank you. I yield back.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from Wisconsin, Mr. 
Grothman, for 5 minutes.
    Mr. Grothman. Yeah. For Mr. Mader--is that right, Mader?
    Mr. Mader. Yes, sir.
    Mr. Grothman. Okay. There's a famous restaurant in 
Milwaukee.
    Mr. Mader. I know. Unfortunately, we don't own it.
    Mr. Grothman. Good. I hope you've been there. It was there.
    With regard to the DATA Act, could you just give me, in 
general, your opinion as to how much progress OMB and Treasury 
are making in determining which agencies are required to report 
under the act?
    Mr. Mader. So we, I think back in the April hearing, we had 
a conversation about that, and we committed after the hearing 
to go back and look at all of the agencies that could 
potentially be required under the statute to adhere to the DATA 
Act.
    And I want to sort of set the stage, though. The fact is 
that we've been concentrating on the 24 CFO Act agencies, 
because they represent 90-plus percent of the total government 
spend. They're the ones that are going to spend the $3-plus 
billion that will be reported in next May.
    Subsequent to the hearing in April, we went back and 
started looking at all of those other midsize agencies, smaller 
agencies, independent boards and commissions. We went out and 
asked that group whether, based on their reading, their general 
counsel's reading of the DATA Act, whether they would be 
required to adhere to the DATA Act.
    So we have now 83 agencies, which includes the 24 CFO Act 
agencies, that have said: Yes, we are covered by it. There are 
a number of those other agencies that came back and said: We're 
not covered by it. We're going back to have conversation with 
them, and then we're looking at all of the others over the next 
couple of months to see should they be adhering to it.
    And I think, Congressman, the reason we took that approach 
is--and I think everybody has recognized--we've been doing this 
with limited additional funding, and we've redirected resources 
across departments to accomplish this. We really focused on 
those that are contributing the 90-plus percent of the dollars. 
We will get to everybody else over time.
    Mr. Grothman. So it isn't even really settled yet which of 
these other agencies are part of it. Do they know they're part 
of it? Could you say, if I asked you right now, these agencies 
are part of it and these aren't, you would give me a hard list?
    Mr. Mader. We can give you the list of the 83 that have 
said: Yep, we're part of it. Like, you know, you have, like, 
FDIC, which is going to be reporting under the DATA Act. So we 
can provide the committee with a list of the ones that have 
said: Yes, we have read the statute and, yes, we are obligated 
to report.
    Mr. Grothman. Okay. So is it right now settled that we know 
which agencies are supposed to report and which are not?
    Mr. Mader. No, it's still not settled. As I just said, 
we've gotten responses back from some saying they're not 
required. We're going to go back and look at their rationale. 
And there's some others that we've asked and that, quite 
candidly, haven't gotten a response from, and we're going to 
follow up with them.
    But some of these, you need to understand, some of the ones 
that we're talking about are very, very small boards and 
commissions. I don't want to speculate how much their spend is, 
but it's not a lot. But we're going to get to them. It's just a 
matter of setting management priorities, and that's what we 
did.
    Mr. Grothman. You can tell me again, when did the act first 
pass?
    Mr. Mader. May of--well, it was signed by the President May 
of 2014.
    Mr. Grothman. I think it's odd that we're over 2-1/2 years 
in and we haven't decided what agencies are part of it yet. But 
if that's what it is, that's what it is.
    Mr. Mader. Well, I think when you have more than 90 percent 
of the spend, that's a significant accomplishment.
    Mr. Grothman. Well, if you would have asked me at the time 
the act passed--and I wasn't here--but I would have thought 
that would take about a week. But what do I know?
    Okay, Mr. Lebryk--is that right, Lebryk?
    Mr. Lebryk. Yes, sir.
    Mr. Grothman. Under the GAO's report that a newly convened 
Data Standards Committee drafted a charter that delineates the 
role--we understand that GAO's report--we understand from GAO's 
report that the newly convened Data Standards Committee has 
drafted a charter that delineates its roles and 
responsibilities. What is the status of that charter?
    Mr. Lebryk. The OMB has stood the committee up. It has met 
on numerous occasions already. The first meeting was in 
September. Dave and I met with the committee, I want to say, 
maybe a month ago, several weeks ago. We've charged them with 
making sure they put together a work plan about what they're 
going to be looking for in the next 6 months. They are 
scheduled to come back to us shortly with that work plan and 
consistent with the charter.
    Mr. Grothman. Has it been approved by the Executive 
Steering Committee?
    Mr. Meadows. The gentleman's time has expired, but if you'd 
go ahead and answer.
    Mr. Lebryk. The committee reports to the Executive Steering 
Committee, which consists of Dave and me. And, yes, we have 
agreed. And OMB is the lead on the committee, but they do 
report to us on a regular basis.
    Mr. Grothman. Thank you.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes himself for 5 minutes. They have 
called votes, and so I want to be sensitive to you and your 
staff. And so instead of coming back and recessing, I'm going 
to yield some time to the gentleman from Ohio, and then I will 
give some written questions, and that way we can adjourn so 
that you don't have to wait for me to come back.
    But the gentleman from Ohio, I'll yield to him.
    Mr. Jordan. I thank the chairman.
    Reading from the President's budget for 2017: ``Offsetting 
collections and offsetting receipts from the public are 
estimated to be $534 billion.'' So I'm still having trouble 
figuring out why Treasury says it's $14 billion when we have 
$534 billion here in fees from OMB. Why that huge gap?
    Mr. Lebryk. So we can bring you a definition of what the 
offsetting receipts is to give you a fuller feel for what all 
the different components are that go into that number.
    Mr. Jordan. But even this: ``Of these, an estimated $231.8 
billion are offsetting collections.'' So that's a lot more than 
$14 billion just there.
    Mr. Lebryk. And offsetting collections, when you look at 
the definition of offsetting receipt, you can see things like 
sale of Federal property, of----
    Mr. Jordan. All I'm saying is, these are things outside of 
the jurisdiction of normal appropriations by the United States 
Congress, the people's representatives, right?
    Mr. Lebryk. No, sir. The only--when the government--as the 
Constitution says, we can only spend money with the authority 
of Congress. So anything that we're doing is with the 
authorization of Congress.
    Mr. Jordan. Yeah, but not in the normal appropriations 
process.
    Mr. Lebryk. Congress would have given the authority to each 
entity to do--to take those funds and use them in a number of 
ways.
    Now, I should mention to you that most of these funds that 
you're looking at have those receipts, are returned to the 
general fund, and they are not dedicated to those programs. In 
certain circumstances, the funds are dedicated to those 
programs----
    Mr. Jordan. I understand.
    Mr. Lebryk. --as Congress has given that authority to those 
programs. It's called a permanent authority.
    Mr. Jordan. Okay. Let me ask you one other question, if I 
could, Mr. Chairman.
    The settlement issue, settlements at Department of Justice, 
do you know if that number has been increasing or decreasing?
    Mr. Lebryk. I don't know, but what I do know from my 
experience is it varies, because, for example, during the 
savings and--during various issues during the history of our 
country, economic issues, sometimes there's more settlements 
than other settlements.
    Mr. Jordan. Okay. Fair enough. That $14 billion number you 
gave us that combines all these three, these three broad 
categories, has that number been trending up or down?
    Mr. Lebryk. Unfortunately, sir, I did not look at the trend 
before I showed up this morning.
    Mr. Jordan. Thank you. We need to know that. Thanks.
    Mr. Meadows. So, Mr. Lebryk, let me offer you an out, 
because I don't want you to give false testimony and I know 
you're trying to answer and be prepared for us.
    But just looking at your own reports, there's about $9 
billion that you collect just within the IRS alone. So your $14 
billion has to be understated.
    I'm a numbers guy and I look at everything. So here's what 
I would ask you to do, is go back, let's look at that. The 
gentleman's point is well-taken. It's not $14 billion. And I 
understand that you were trying to be prepared for this 
committee and I want to applaud you for doing that, but let's 
look at that differently. There's just zero chance that that's 
an accurate number, okay, just based on your own data.
    Mr. Lebryk. I agree, sir. What I was referring to is what 
is reported through something we call a Treasury account symbol 
that is very specific. And you're----
    Mr. Meadows. What the gentleman is trying to get at is that 
we have from OMB between $500 and $650 billion that come in, in 
fees, settlements, fines, et cetera. Some, as you mentioned 
are, quote, appropriated only because we say that they're 
appropriated, but it doesn't go through the normal 
appropriations process. We need some accurate numbers from both 
of you, if we can do that.
    We are going to votes. Here's what I would ask OMB if you 
would do. I need your contacts, since this is your last rodeo, 
I need your contacts on implementing all of this throughout all 
of the agencies, who we need to go through, in terms of making 
sure that we don't lose any progress on this throughout all the 
agencies.
    Mr. Meadows. And then from GAO's standpoint, I need you to 
work with OMB in these last few days on the governance aspect 
of that, the hurdles that we have. You've already identified 
those. If you can could report back.
    Mr. Meadows. If there's no further business before this 
committee, the committee stands adjourned. Thank you all.
    [Whereupon, at 10:21 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
